U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




               PUBLIC
              RELEASE


            ECONOMIC DEVELOPMENT
                  ADMINISTRATION

                Midwest Flood Program:
          Opportunities Exist to Improve
 Management of Future Disaster Programs

      Audit Report No. DEN-8772-8-0001 / September 1998




                  Office of Audits, Denver Regional Office
U.S. Department of Commerce                                                              Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                                                September 1998

                                               TABLE OF CONTENTS
                                                                                                                        PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

          Purpose and Scope of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

I.        TECHNICAL ASSISTANCE PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
          A.   Improved Guidelines Needed
                                      ............................................3
          B.   Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
          C.   EDA’s Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

II.       CONSTRUCTION PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
          A.   Some Grants Not Directly Disaster Related . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
          B.   Two Grants Will Not Benefit Flood Victims . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
          C.   Slow Progress on Some Projects May Place Funding in Jeopardy . . . . . . . . . . . 6
          D.   Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
          E.   EDA’s Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
          F.   OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

III.      REVOLVING LOAN FUND PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
          A.  Grants Excessive in Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
          B.  Two Grants Were a Questionable Use of Funds . . . . . . . . . . . . . . . . . . . . . . . . . 9
          C.  Five Grants Not Timely Awarded for Effective Use . . . . . . . . . . . . . . . . . . . . . 10
          D.  Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
          E.  Funds to Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
          F.  EDA’s Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
          G.  OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

IV.       FLOOD LEVEE PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           12
          A.   EDA’s Task Was Difficult . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       12
          B.   EDA’s Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   13
          C.   OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   13

APPENDIXES

I        EDA Grant Applications and Awards - Public Law 103-75 . . . . . . . . . . . . . . . . . . . . . 14
II       Schedule of Undisbursed RLF Grant Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
III      EDA Comments on the Draft Audit Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
U.S. Department of Commerce                                           Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                             September 1998

                                    EXECUTIVE SUMMARY

On August 12, 1993, the Congress enacted the Emergency Supplemental Appropriations for
Relief From the Major, Widespread Flooding in the Midwest Act of 1993 (Public Law 103-75).
Public Law 103-75 provided $4.84 billion of assistance to victims of the Midwest floods and
other disasters. The Congress distributed funds through programs of various federal agencies,
including the Department of Commerce’s Economic Development Administration, which received
a $200 million appropriation to award disaster assistance grants for economic recovery of
communities, industries, and firms adversely affected by the floods and other disasters. Public
Law 103-75 required EDA to utilize the grant programs of the Public Works and Economic
Development Act of 1965 (PWEDA), as amended.

Intense rainstorms in the summer of 1993 caused flooding in the upper Mississippi and lower
Missouri river basins. The flooding caused significant damage in nine states -- Illinois, Iowa,
Kansas, Minnesota, Missouri, Nebraska, North Dakota, South Dakota, and Wisconsin. The
disaster resulted in a Presidential Disaster Declaration that included 487 counties in the nine
states.

Heavy flood damage across the region left about 70,000 people homeless and millions of farm
acres either inundated or too soggy to produce crops. The floods also damaged businesses and
related public infrastructure, resulting in business disruptions, losses, and unemployment.
Flood waters damaged or destroyed buildings, water and wastewater treatment facilities, roads,
bridges, transmission and distribution lines, sewer lines, and water lines.

EDA implemented Public Law 103-75 through four types of grant programs, as shown below.
EDA received 539 applications, totaling about $410.6 million, and awarded 287 grants for $192.3
million of the $200 million appropriation. (Note: EDA officials emphasize that this represented
an approximate 50% increase over EDA’s regular FY 1994 funding based, without any additional
resources for personnel or other administrative costs.)

                                                                       No. of       Award Amount
 EDA Program                                 PWEDA Title              Awards         ($ in millions)
 Technical Assistance                        Title III                      99                   $8.1
 Construction                                Title I and IX                160                  169.7
 Revolving Loan Fund                         Title IX                       16                   10.5
 Levee Repair and Upgrade                    Not Applicable                 12                    4.0
 Total                                                                     287                $192.3

We found that all the grants awarded by EDA complied with Public Law 103-75 and that the
great majority of them clearly mitigated the effects of the flood, utilized funds efficiently, served
the legislative purpose, and were performed in a timely manner. However, our audit also
identified opportunities for EDA to improve its management of future disaster programs. Our
findings are summarized as follows:

                                                  -i-
U.S. Department of Commerce                                          Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                            September 1998

Technical Assistance Program. To more adequately identify and assess disaster needs
associated with the 1993 flood, EDA funded 99 “technical assistance” grants for a total of
$8.1 million. These grants, generally awarded to state and local entities, generated most of the
actual requests for EDA’s assistance. We found EDA’s use of these grants to plan for
construction and revolving loan fund grants to be a sound approach. However, it appeared that
some of the projects identified and proposed by the technical assistance grantees were not
necessarily related to recovery from the flood damage. This raised questions as to whether all the
technical assistance recipients had a clear understanding of EDA’s priorities for mitigating the
economic devastation associated with the flood (see page 3).

While encouraging EDA to pursue a similar approach in future disaster assistance efforts, we
recommend that the Assistant Secretary for Economic Development provide technical assistance
grant recipients with guidelines to better identify and prioritize projects for EDA disaster funding.

In follow-up discussions, the Assistant Secretary has advised us that he will continue actions
begun in 1997 as necessary to provide technical assistance grantees with improved guidelines for
identifying and prioritizing proposals related to future disaster projects.

Construction Program. The construction programs under PWEDA did not have clear project
development criteria for applying the programs to disasters. While it was readily apparent to us
that the vast majority of the 160 projects funded at $169.7 million helped mitigate the economic
damage caused by the disaster or will prevent future flood damage, it was not apparent for others.
In these instances we questioned whether the construction grants awarded were, in fact, priority
projects that would best assist flood victims. Moreover, we found that slow progress on some
construction projects may place the funding in jeopardy and raises questions as to whether the
projects were, in fact, a priority (see page 4).

EDA has been, and will continue to be, involved in the federal efforts to help with disaster relief
and assistance. Hence, we recommend that the Assistant Secretary for Economic Development
develop construction program guidelines that will assist both the applicants and decision makers
in their efforts to identify and give appropriate consideration to projects that have the greatest
potential to mitigate the effects of the particular disaster.

In response to our draft report and in subsequent discussions, EDA brought to our attention new
guidance developed in 1997 which focused on many of these issues. After careful review of
EDA’s response and subsequent discussions, we have, where appropriate, modified our report but
have reaffirmed our recommendation that EDA strengthen its guidelines in this area.

Revolving Loan Fund Program. EDA awarded 16 grants, totaling nearly $10.5 million, to 14
recipients under the RLF program. We note that these 16 grants will remain in place long after
the disaster-related needs cease to exist and that funds from the grants then will be reused for
non-flood purposes, rather than returned to the U.S. Treasury (see page 8). We also questioned
whether two specific RLF funds represented the best use of funds since they were loaned for




                                                 -ii-
U.S. Department of Commerce                                           Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                             September 1998

purposes not related to economic dislocation caused by the flood (see page 9). Also, we found
that five of the grants were ineffective because by the time awards could be implemented, the
grant recipients could not find any disaster-affected businesses to borrow the RLF funds (see page
10).

We recommend that the Assistant Secretary for Economic Development (1) develop RLF
program criteria to provide timely financial aid to businesses impacted by disasters only until the
need no longer exists, (2) consider using existing RLFs for disaster relief via temporary grant
revisions, and (3) deobligate $773,000 of undisbursed RLF grant funds (see pages 10-11). If
EDA deobligates the funds, $773,000 will be put to better use (see page 11).

EDA generally agreed that the nature of RLFs warrants additional consideration when awarding
such assistance for disaster response and mitigation. Moreover, EDA officials advise that they
have already instituted formal policy and procedural changes to address many of these special
issues that arise with disaster-related RLFs. EDA also agreed that some flood RLFs require
corrective action, including possible termination, and that it already is, or will be, pursuing such
actions in the normal course of events.

Levee Repair and Upgrade Program. The Federal Interagency Task Force on Midwestern
Flood Recovery required EDA to participate in a levee program. Although EDA implemented the
levee program, it awarded just 12 grants, totaling approximately $4 million, only 22 percent of the
$18 million allocated by the Task Force. EDA’s difficulties in awarding the funds allotted for
levees were not the result of deficiencies in EDA program management, but instead appear to be
the result of questionable Task Force strategy to shift responsibility from agencies with experience
in levee repairs to an agency with no such experience. EDA processed 108 levee grant
applications but found only 12 eligible applicants--an effort that was not the most effective use of
EDA’s limited resources (see page 12).

We do not have a recommendation to the Assistant Secretary for Economic Development, as this
situation was outside of EDA’s control.

EDA stated that it is unaware of any provision within PWEDA that would restrict the
construction or repair of levees by EDA. Consequently, EDA believes that the special levee
criteria it developed should be viewed as an appropriate mechanism for the implementation of
federal levee policy within the authority of PWEDA, rather than an effort to create an otherwise
unauthorized and questionable new program.

We agree with EDA’s comments and have made appropriate revisions to the final report, which
no longer questions EDA’s authority to construct or repair levees. However, we still believe the
delegation of the levee program to EDA raises questions as to whether this resulted in an efficient
use of EDA’s limited resources.
                                             ----
We have made appropriate revisions in other areas of the report where warranted. EDA’s written
comments on our draft audit report are provided as Appendix III; the attachments to those
comments are available upon request.


                                                 -iii-
U.S. Department of Commerce                                         Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                           September 1998

                                       INTRODUCTION

On August 12, 1993, the Congress enacted the Emergency Supplemental Appropriations for
Relief From the Major, Widespread Flooding in the Midwest Act of 1993 (Public Law 103-75).
Public Law 103-75 provided $4.84 billion to federal agencies to assist victims of the Midwest
floods and other disasters, including $200 million to Commerce’s Economic Development
Administration to assist in the economic recovery of communities, industries, and firms adversely
affected by the flood and other disasters, pursuant to the Public Works and Economic
Development Act of 1965 (PWEDA), as amended (Public Law 89-136; 42 U.S.C. 3121).

Intense rainstorms in the summer of 1993 caused flooding in the upper Mississippi and lower
Missouri river basins. By late June, flood storage reservoirs were at or near capacity and soils
throughout the area were saturated. High river levels breached or overtopped more than 1,000
levees and significantly damaged others. Runoff from already saturated land turned fields into
lakes and small streams into rivers. Heavy flood damage across the region left about 70,000
people homeless and millions of farm acres either inundated or too soggy to produce crops.

Floods damaged businesses and related public infrastructures, resulting in business disruptions,
losses, and unemployment. Flood waters exerted a powerful force that damaged or destroyed
buildings, water and wastewater treatment facilities, roads, bridges, transmission and distribution
lines, sewer lines, and water lines. The flooding caused significant damage in nine states --
Illinois, Iowa, Kansas, Minnesota, Missouri, Nebraska, North Dakota, South Dakota, and
Wisconsin. The disaster resulted in a Presidential Disaster Declaration that included 487 counties
in nine states (including all 99 counties in Iowa).

As directed by Public Law 103-75, EDA used its existing grant programs to implement the flood
assistance program. The grant programs included (1) planning and technical assistance grants, (2)
public works and infrastructure grants, and (3) revolving loan funds. EDA was later required to
revise its program to include the repair and upgrade of levees.

In August 1993, EDA initiated its disaster recovery program by offering technical assistance (TA)
grants under Title III of PWEDA for staffing and full administrative support for planning and
coordination efforts. EDA designed the TA grants to address specific economic develop-ment
problems, which included hiring “disaster coordinators.” Other TA strategy grants were used to
determine the actions necessary to reestablish economic stability in the flood areas. Typical
funding for initial awards ranged from $50,000 to $75,000, with a grant period of from 12 to 18
months.

After completing the technical assistance process, EDA evaluated grant applications for
construction grant projects under Titles I and IX of PWEDA, and revolving loan fund (RLF)
grants under Title IX, to implement plans developed through the TA grants. Construction grants
were proposed for building public facilities, industrial parks, industrial access roads, and water
and sewer facilities. RLF grants were proposed to aid businesses in obtaining needed capital.




                                                 1
U.S. Department of Commerce                                                 Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                                   September 1998

In December 1993, based on direction from the Federal Interagency Task Force on Midwestern
Flood Recovery,1 EDA amended its disaster relief program to include repair and improvement of
levees. EDA allotted $18 million for levee repair and upgrading. In carrying out the levee
portion of its flood program, EDA collaborated with the U.S. Army Corps of Engineers to ensure
that levee repairs met Corps criteria. Levees would then be eligible for future participation in the
Corps’ program of emergency levee repairs under the Levee Rehabilitation Assistance Program
(Public Law 84-99). Since EDA does not have a levee program under PWEDA, it classified levee
projects as Title IX grants.

EDA received 539 applications for flood disaster grants, totaling about $410.6 million. EDA
awarded 287 grants for about $192.3 million, including $8.1 million for 99 technical assistance
grants, $169.7 million for 160 construction grants, $10.5 million for 16 RLF grants, and
$4 million for 12 levee grants (see Appendix I). EDA processed grant applications in its Chicago
and Denver Regional Offices. EDA did not expand its staff to manage this large effort since
Public Law 103-75 did not appropriate funds for that purpose.

Purpose and Scope of Audit

The purpose of our audit was to determine whether the numerous and diverse projects awarded
with emergency flood act funding (1) complied with the stated purpose of the Act, (2) were
funded efficiently and served the legislative purpose, and (3) were performed in a timely manner
to correct dislocations caused by the disaster.

We performed a preliminary review of project files at the two EDA regional offices to select
projects for field review. We judgmentally sampled grants awarded with flood act funds,
expanding our sample where needed to ensure the reliability of results. We also reviewed
unfunded grants to determine the project purpose, type, description, amount, and reason for
rejection or withdrawal; however, we did not determine the eligibility of unfunded grants. During
July through September 1996, we visited 53 grant recipients in eight states to determine the status
of the projects and review the justifications for the grants. After assessing the results of our initial
selection, we expanded our review to include a total of 199 grants, or 69 percent of the total
awards, to improve the reliability of our audit results. We reviewed how grant recipients justified
project eligibility and recovery needs, and determined the status of grantee performance. We also
interviewed EDA program officials to determine the agency’s policies and procedures for
program implementation.

We reviewed EDA’s compliance with Public Law 103-75, PWEDA (P.L. 89-136), and other
applicable regulations. We did not perform a review of the general and application controls of
EDA’s computer generated program data. We did perform tests that indicated the data was
reliable.

Our review was conducted in accordance with generally accepted government auditing standards,
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.


        1
         The Task Force was established by the Administration to coordinate the Midwest Flood relief efforts and
was headed jointly by the Secretary of Agriculture and the Director of the Federal Emergency Management
Agency.

                                                       2
U.S. Department of Commerce                                           Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                             September 1998

                           FINDINGS AND RECOMMENDATIONS

We found that (1) all the grants awarded by EDA complied with Public Law 103-75 and (2) that
the great majority of them mitigated the effects of the flood, utilized funds efficiently, served the
legislative purpose, and were performed in a timely manner. However, our audit also identified
opportunities for EDA to improve its management of future disaster programs.

I. TECHNICAL ASSISTANCE GRANT PROGRAM

A.     Improved Guidelines Needed

To adequately assess disaster needs and the award of construction and RLF grants, EDA funded
99 technical assistance grants for a total of $8,139,315. These grants, generally awarded to state
and local entities, generated most of the actual requests for EDA assistance. EDA required
technical assistance grantees to prepare (1) an area damage assessment, (2) an economic recovery
strategy for the area, and (3) recommendations of specific projects to help the area recover from
the impact of the disaster. EDA’s policy required that a recognized planning process provide the
basis for awarding implementation grants (including construction and revolving loan fund grants).

We reviewed 34 technical assistance project grant files. We found EDA’s use of technical
assistance grants to plan for construction and RLF grants to be a sound approach. However,
while the technical assistance process was a good approach for planning for the use of EDA
disaster funds, some grant recipients proposed construction and RLF projects not related to the
effects of the disaster. During our audit and afterwards, we discussed with EDA officials whether
specific projects served the intended economic recovery purpose. In some instances, EDA
officials could convincingly show the merits of the projects. In other instances, they could not.
To minimize such uncertainties, there is a need for EDA to provide more specific guidelines to
planners for assessing economic disaster damage and justifying proposed projects.

In one case, we found EDA awarded a $175,000 grant to a foundation located in Des Moines,
Iowa, to do a feasibility study regarding the establishment of the World Food and Agriculture
Capitol, and to address the worldwide demand for agricultural products through better use of
resources and technology. This TA project had nothing to do with the flood or recovery from the
flood. EDA regional officials were reportedly directed by headquarters to fund the project using
the rationalization that Des Moines was hard hit by the flood and that the project would help the
city’s long-term recovery from the effects of the flood.

B.     Recommendation

We recommend that the Assistant Secretary for Economic Development provide technical
assistance grant recipients with more specific guidelines to better identify possible projects for
EDA disaster funding.

C.     EDA’s Comments

In follow-up discussions, the Assistant Secretary has advised us that he will continue actions
begun in 1997 to provide technical assistance grantees with improved guidelines for identifying
and prioritizing proposals related to future disaster projects.


                                                  3
U.S. Department of Commerce                                         Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                           September 1998

II. CONSTRUCTION PROGRAM

EDA assisted flood-impacted areas by using its construction program authority authorized in Title
I and Title IX of PWEDA to provide long-term economic relief and alleviate economic distress.
Using the funds appropriated under Public Law 103-75, EDA awarded 160 construction grants in
the amount of almost $169.7 million consisting of 24 Title I grants totaling $30,917,479, and 136
Title IX grants totaling $138,796,765 (see Appendix I).

PWEDA enables EDA to provide grants for public works and development facilities to alleviate
unemployment and underemployment. EDA’s regular Title I program of PWEDA, Grants for
Public Works and Development Facilities, provides for grants in redevelopment areas that suffer
poor economic conditions, including persistent unemployment above the national average, loss of
population, low median family income, distressed Indian lands, sudden rises in unemployment,
long-term economic deterioration, and special programs and laws.

EDA’s regular Title IX program of PWEDA, Special Economic Development and Adjustment
Assistance, provides special economic development and adjustment assistance grants to help state
and local areas meet special needs arising from actual or threatened severe unemployment caused
by economic dislocation. Title IX enables EDA to award grants directly to an eligible recipient in
an area that the Assistant Secretary for Economic Development has determined to have a special
economic development need.

We reviewed 139 of the 160 construction grants. It was readily apparent to us that 116 of the
139 projects aided recipients to recover from the effects of the flood, or prevented future flood
damage and the related economic impact. However, EDA’s program criteria in 1994 and 1995
did not provide clear direction that projects be awarded based on correcting the economic and
physical effects of the disaster or mitigating the economic impact of future disasters.

As a result, some construction grants appeared unrelated to the damage or the economic impact
caused by the flood. We also noted two grants that were not used to aid flood victims as
proposed. Finally, the apparent slow progress of some projects may place those projects in
jeopardy.

A. Some Grants Not Directly Disaster Related

While Public Law 103-75 provided funds for relief from the flood, EDA awarded 21 construction
grants for long-term economic development in areas impacted by the flood even though there was
no evidence that the flood disaster caused a long-term economic dislocation in the areas being
aided. EDA justified the projects on the basis that they promoted future economic growth or
created jobs in a disaster area. Often, increases in unemployment caused by the disaster had
subsided by the time the prospective grantee had submitted its grant application. Sometimes,
EDA used the disaster to justify funding projects which could have been funded with EDA’s
regular appropriation. We therefore questioned whether EDA’s use of emergency




                                                 4
U.S. Department of Commerce                                         Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                           September 1998

flood funds for general economic development purposes where there was no long-term economic
dislocation caused by the disaster represented the best use of scarce disaster funds. The scarcity
of the resources is evidenced by FEMA’s September 1993 notification to the Special Assistant to
the President that the amount of funds appropriated to all federal agencies to aid victims was not
sufficient to make all victims whole.

Two examples illustrating our concerns are presented below.

Polk County, Iowa (Grant Nos. 05-19-61099, 05-19-61101, and 05-19-61102 -- $1,770,900)

EDA awarded three grants for construction of new sewage lines and other improvements. The
three areas in the county receiving these grants were not economically or physically damaged by
the 1993 flood. The county did not provide evidence of business closures, layoffs, or signifi-
cantly damaged infrastructure caused by the disaster. The justification for the grants was to
provide new infrastructure to encourage future economic growth in the declared disaster area.

Economic statistics indicate that the area had no economic dislocation. The unemployment rate
of Polk County dropped from about 3.8 percent before the flood (second and third quarters of
1992), to an average of 3.6 percent during the 1993 flood months (second and third quarters of
1993).

By the fourth quarter of 1993, the unemployment rate averaged 2.8 percent. The national average
unemployment rate during the flood months was 6.8 percent, about three percentage points above
the county’s rate during the same period. The national unemployment rate for 1993, 1994, and
1995 exceeded Polk County’s rate by a minimum of two percentage points.

Imperial, Nebraska (Grant No. 05-01-61187 -- $1,001,690)

EDA awarded this grant to reconstruct an unmanned airstrip that serves as the municipal airport.
The airstrip suffered damage to its only runway due to a series of heavy rains, which left a pool of
water flowing across the runway. A design defect caused the water pooling. The airport closed
for two days. The two-day closure did not dramatically affect flights at the airport or impact the
economy. Activities at the airport include two aerial spray operations, nine private doctors who
fly in and out periodically, a medivac, and flights of private citizens. FEMA informed EDA that
airport repair was usually eligible for funds under the authority of the Federal Aviation
Administration. Imperial officials told us that they did not apply to FAA for financial aid because
they would have to wait several years for funding.

EDA funded the project to encourage future economic growth. Imperial suffered no significant
economic dislocation from the two-day closure of the airstrip. A lack of dislocation is indicated
by local unemployment rates in Chase County where Imperial is located.

Chase County did not experience a significant increase in the unemployment rate or have a higher
rate than the national average during the flood. The county’s unemployment rate for the flood
months was 2.2 percent, well below the national rate of 6.8 percent. The rate for the same period
in 1992 was 2.1 percent.

                                                 5
U.S. Department of Commerce                                         Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                           September 1998

B. Two Grants Will Not Benefit Flood Victims

EDA awarded two construction grants totaling $3,574,778 for public infrastructures with the
intent of aiding specific flood impacted businesses. We found that these grants, as proposed and
awarded, would have been appropriate uses of funds under the Act. However, the grant
recipients will not be using the facilities to help the intended flood impacted businesses.

EDA awarded Grant No. 05-19-61129 to St. Louis County, Missouri, for $2,887,500, to
construct a commercial and retail incubator, which would allow flooded businesses to remain in
the community. The incubator would also provide opportunities to attract new businesses to the
community. The county has not yet constructed the project. At the time of our visit in
September 1996, the businesses that were flooded, which the project was to have helped, either
had moved or were in the process of moving from the area. Despite the project’s appropriate
intent, this project apparently will not aid the flooded businesses.

EDA awarded Grant No. 05-19-61155 to the City of Grafton, North Dakota, for $687,278, to
provide infrastructures to an 80-acre portion of an industrial park. The purpose of the grant was
to construct a new industrial park to enable the city’s eighth largest employer, which had been
flooded, to relocate from the flood plain, and allow the company to expand its operations. The
company did not move into the new park when it was completed, and remained in its old location
and bought a building to expand, thereby negating the reason for the grant. Thus, this project will
not achieve the grant intent of helping this business.

Neither of the grant awards placed conditions or requirements that the businesses impacted by the
flood actually had to move into the projects. Delays in construction of the incubator and changed
plans of one flood-impacted project beneficiary prevented the use of these projects to provide the
planned benefit to disaster-impacted businesses. EDA approved these grant awards, in part, on
the basis that they would help flood victims; however, the outcome of the projects failed to meet
the intent. As a result, almost $3.6 million of flood funds will not have the promised benefit to
flood impacted businesses.

C. Slow Progress on Some Projects May Place Funding in Jeopardy

Since EDA’s ability to disburse the obligated disaster funds expires on September 30, 2000, EDA
construction grants not completed by that date could lose their funding, placing the projects in
jeopardy. As of May 27, 1998, 12 of 160 construction grants, totaling $8,503,240, had less than
10 percent of the grant funds disbursed. To their credit, EDA officials have been diligent in
following established policies to prevent premature and inappropriate disbursements on projects
that have impediments and generally have done a good job in monitoring progress toward the
completion of flood-related construction grants. However, the flood program grants, as with all
EDA regular program funds, have a strict statutory limit on how long funds will be available for
disbursement.


                                                 6
U.S. Department of Commerce                                           Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                             September 1998

D. Recommendations

We recommend that the Assistant Secretary for Economic Development:

(1) develop construction program guidelines that will assist both the applicants and decision
    makers in their efforts to identify and give appropriate consideration to projects that have the
    greatest potential to correct specific economic dislocations caused by disaster or to prevent
    future economic dislocations caused by disasters,

(2) place, as appropriate, specific requirements in grants to ensure they are used for the intended
    purpose when a grantee represents that the project will be used to aid specific disaster-
    impacted businesses, and

(3) closely monitor uncompleted projects awarded under the Act, to ensure that the projects will
    be completed by the grant deadline; otherwise, EDA may have to terminate projects for
    cause.

E. EDA’s Comments

EDA stated that the OIG did not understand EDA’s philosophy, policy, and regulations related to
disaster programs, and claimed that the grants initially questioned in the draft report were
generally associated with the disaster or mitigated future disasters. In particular, EDA’s policy
(published in EDA’s notices of fund availability) states that “in the case of a Presidentially
declared natural disaster, the area disability criteria are waived.” Therefore, an area is not
required to demonstrate high unemployment rates, low per-capita income, or any other of the area
eligibility criteria associated with EDA grant assistance. EDA also stated that the draft audit
report discussion of delayed projects implied that projects were not urgently implemented or even
needed.

F.   OIG Comments

After careful review and consideration of EDA’s comments, including explanations that
responded to the specific grants questioned in the draft audit report, we no longer question some
of the grants cited, while continuing to question others. In questioning whether certain
construction grants were the most efficient use of resources, we used unemployment rate data as
a general criteria only where the project or a portion of the project did not provide for (1)
correcting the economic dislocation and damage caused by the flood or (2) preventing future
disaster-caused economic dislocations. Given the scarce funding that is usually available, we
believe that economic conditions should be considered by EDA when determining the priority of
future disaster assistance projects.

With respect to delayed construction projects, we did not imply that EDA is not working
diligently to reduce delays. Rather, we are advising that the delays will potentially cause the loss
of funding due to strict statutory limits on how long funds will be available, placing the projects in
jeopardy.


                                                  7
U.S. Department of Commerce                                           Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                             September 1998

III. REVOLVING LOAN FUND PROGRAM

On October 19, 1993, EDA announced in the Federal Register that eligible grant recipients could
apply for revolving loan fund grants to aid in the recovery from the effects of the flood. EDA
awarded 16 revolving loan fund grants, totaling $10,471,340, to 14 recipients under Title IX of
PWEDA.

EDA Title IX RLF grants do not have a completion date as do most other grants, and the assets
of the grant consist of cash and loans receivable, which are used continuously for program
purposes. EDA’s Title IX grants provide for assistance to mitigate sudden and severe economic
dislocations (SSED), unemployment caused by plant and base closings, long-term economic
deterioration (LTED), or long-term loss of employment and wages in high unemployment areas.
The RLFs provide loans to encourage local business expansions and help create jobs in qualifying
areas.

Four of the 14 RLF grant recipients had previous EDA RLF grants. When we asked grantee
officials why they did not use their existing RLFs for the flood disaster, they told us the existing
funds in these RLFs were not available to flood victims because of excessively restrictive loan
eligibility requirements, and the original RLF did not contain a disaster clause that would allow
the EDA requirements to be waived for emergency situations.

Most of the RLFs awarded to make loans to businesses financially impacted by the floods helped
businesses survive the financial impact of the flood. However, the flood RLFs awarded were
excessive in scope since they provided for reuse of the funds for non-disaster related purposes
after the disaster-related need no longer existed. In addition, two RLF grants resulted in an
inefficient use of funds since they were used in areas which did not have long-term disaster-related
economic dislocations. Finally, we believe five RLF grants were not awarded quickly enough for
effective use.

A. Grants Excessive in Scope

The 16 RLF grants went beyond the intent of Public Law 103-75, because loan repayments can be
reused for non-flood purposes after the need for flood relief is over. The grants allow the $10.5
million of disaster funds to be used as if they are part of EDA’s normal Title IX RLF program.

EDA’s Title IX RLF program, under which the flood RLF grants were awarded, provides for the
continuing use of RLFs, as opposed to the return of funds to the U.S. Treasury after the specific
need for the funds is over. As a result, the entire funding of $10.5 million for RLFs could
eventually be used for purposes beyond disaster relief, a questionable use of the flood disaster
appropriated funds under Public Law 103-75.




                                                  8
U.S. Department of Commerce                                         Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                           September 1998

B. Two Grants Were a Questionable Use of Funds

EDA awarded two RLF grants that were questionable because of the apparent lack of long-term
flood-caused economic damage. EDA allowed the flood disaster area to be the prime criterion for
grant awards, as opposed to the economic dislocation caused by the disaster. As a result, some
grant recipients made loans for purposes not related to the flood-caused economic dislocation.

In brief, project funds earmarked to aid area recovery from the flood disaster did not appear to
have consistently been used as intended by Public Law 103-75, and therefore represented a
questionable use of emergency appropriations. Two examples are shown below.

Nebraska Economic Development Corporation (Grant No. 05-19-61289)

On March 27, 1995, EDA awarded an RLF grant to the Nebraska Economic Development
Corporation for $600,000, with a $200,000 matching share requirement. At the time of our visit
in late July 1996, the recipient had awarded only one loan for $205,000, which was a portion of a
much larger plant expansion financing that had been planned well before the flood. The recipient
made the loan to a pet food manufacturer in eastern Nebraska specializing in foods for exotic
animals. The borrower claimed that a temporary work stoppage caused by water line breaks and
higher material costs damaged its operation in 1993. However, the borrower’s loan application
shows 1993 (the flood year) as the borrower’s first profitable year after years of losses.

We were unable to determine how the grant was related to significant economic dislocation
caused by the flood. During 1993, unemployment in the borrower’s county ranged from 2.2 to
3.0 percent, well below the national average. The flood appears to have merely created a pretext
to use the RLF program as a funding source for the company’s long-term plant expansion. In
addition, with only one loan made through July 1996 (three years after the flood), we question the
need for this RLF grant.

Mid Iowa Development Fund (Grant No. 05-19-61290)

On March 27, 1995, EDA awarded an RLF grant administered by the Mid Iowa Development
Fund. At the time of our visit in late August 1996, the recipient had not awarded any loans, and
had only one loan in process. We found no evidence that the potential borrower suffered
economic dislocation as a result of the flood.

During 1993, unemployment in the borrower’s county ranged from 2.7 to 3.6 percent, well below
the national average. Based on the lack of economic dislocation caused by the flood, and the
availability of only one flood-impacted borrower at the time of our review, we do not believe the
EDA funds were used to recover from the effects of the flood disaster. In addition, with only one
loan as of August 1996, we question the need for flood loans in this area.




                                                 9
U.S. Department of Commerce                                         Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                           September 1998


C. Five Grants Not Timely Awarded for Effective Use

Our review revealed that the earlier the RLF grants were awarded, the more successful the grant
recipients were in lending funds for disaster mitigation. On the other hand, the later the RLF
grants were awarded, the less successful the grant recipients were in lending funds. As of May
27, 1998, about five years after the disaster appropriation, $773,000 of the $10.47 million had not
been disbursed by RLF grant recipients (see Appendix II).

EDA did not have an RLF policy ready for immediate implementation for an emergency program
with special criteria for grant awards based on losses caused by the disaster. Also, the
administrative requirements of EDA’s regular RLF program hampered the ability of grant
recipients to award loans. Several of the grant recipients told us that it took about six months
after they received an EDA grant to be in a position to make loans. The EDA program required
them to establish a loan board, hire staff, advertise the program, and screen loan requests.

EDA’s RLF program and grant application procedures are geared toward long-term economic
development, not immediate emergency aid. The lack of a preexisting EDA emergency RLF
grant program hampered the effectiveness of grant recipients to make loans to businesses
damaged by disasters. An example of slow disbursement is presented below.

Mississippi River Regional Planning Commission (Grant Numbers 06-19-61092, 06-19-61093,
06-19-61094)

EDA awarded three RLF grants in February 1995, each for $340,000, to the Mississippi River
Regional Planning Commission. At the time of our site visit in August 1996, the recipient had
made only a $200,000 loan to a borrower that manufactures and sells boats. The borrower
claimed economic damage because of the flood. During 1993, unemployment in the borrower’s
county ranged from 3.9 to 5.1 percent, well below the national average.

As of December 10, 1997, four and one-half years after the flood, the grants remain only partially
disbursed with over one-third undisbursed. We question the emergency need for the loan funds
based on the recipient’s inability to immediately utilize the loan funds for flood-impacted
businesses.

D. Recommendations

We recommend that the Assistant Secretary for Economic Development:

(1) develop an RLF program to provide timely aid to businesses impacted by future
    disasters only until the need no longer exists,




                                                10
U.S. Department of Commerce                                           Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                             September 1998


(2) consider using existing RLFs for disaster relief via temporary grant revisions, and

(3) deobligate $773,000 of undisbursed RLF grant funds.

E. Funds to Be Put to Better Use

If EDA deobligates the undisbursed RLF grant funds, $773,000 will be put to better use.

F.   EDA’s Comments

EDA stated that it was in general agreement with us that the nature of RLFs warrants additional
considerations when awarding such assistance for disaster response and mitigation. EDA also
advised that in 1997, it had issued formal policy and procedural changes to address the special
issues that arise with disaster-related RLFs. EDA also agreed that some flood RLFs require
corrective action, including possible termination, and that it already is, or will be pursuing, such
actions in the normal course of events.

G. OIG Comments

EDA’s comments demonstrates its willingness and ability to respond to its program in order to
correct the weaknesses of using RLFs for disaster response mitigation. Establishing policies and
procedures for use of the RLFs for disaster response mitigation is a positive step in correcting the
weaknesses of using the RLF program for disasters.




                                                 11
U.S. Department of Commerce                                           Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                             September 1998


IV. FLOOD LEVEE PROGRAM

A. EDA’s Task Was Difficult

In November 1993, the Midwest Flood Recovery Interagency Task Force announced that
$18 million of additional flood relief funds would be available for levee repair from EDA. The
announcement indicated that if a levee is otherwise ineligible for federal assistance, and it protects
critical public infrastructures, it could be eligible for assistance through EDA. Accordingly, EDA
announced its program in the December 29, 1993, Federal Register.

EDA received 108 grant applications for levee repair and upgrade totaling more than $70 million,
but awarded only 12 grants for less than $4 million. EDA officials told us that it was difficult to
find projects that qualified for EDA funding under the levee program. We do
not believe EDA’s inability to award all the funds allotted for levees was the result of deficiencies
in EDA program management, but the consequence of questionable Task Force strategy.

In December 1993, based on direction from the Federal Interagency Task Force on Midwestern
Flood Recovery, EDA amended its disaster relief program to include levee repairs. The reason
for the Task Force requirements appears to be that many breached and damaged levees were not
included under the Corps of Engineers program because of non-compliance with Public Law 84-
99, which requires levees to meet public law standards of construction, management, and
maintenance before the Corps would repair them under its program. Therefore, in order to find a
different source of funding, and to provide a waiver (because of the disaster) from requirements
of Public Law 84-99, the Task Force required EDA to provide funding for noncomplying levee
projects.

Requiring EDA to utilize flood money to repair noncomplying levees to Corps standards was a
questionable strategy. PWEDA does not provide a program with specific criteria for levee repair.
EDA officials had to form internal criteria for what essentially was a new program to EDA. EDA
officials told us that they found very few applications that complied with EDA criteria for
awarding an economic development-related project. We found EDA criteria for levee projects
reasonable.

We question the appropriateness of shifting responsibility from agencies with experience in levee
repairs to an agency with no experience in such repairs. Processing 108 grant applications, but
finding only 12 eligible applicants, required an effort that was not the most effective use of EDA’s
limited resources.

We do not have a recommendation to the Assistant Secretary for Economic Development, as this
situation was created outside EDA’s control.




                                                  12
U.S. Department of Commerce                                       Audit Report No. DEN-8772-8-0001
Office of Inspector General                                                         September 1998


A. EDA’s Comments

EDA stated that it is unaware of any provision within PWEDA that would restrict the
construction or repair of levees by EDA. Consequently, EDA further stated that its special levee
criteria should be viewed as an appropriate mechanism for the implementation of federal levee
policy within the authority of PWEDA.

B. OIG Comments

We agree with EDA’s comments; however, we still believe the delegation of the levee program to
EDA resulted in an inefficient use of EDA’s resources.




                                               13
                                                                     Appendix I




                        EDA Grant Applications and Awards
                               Public Law 103-75


                             GRANT APPLICATIONS              GRANT AWARDS

 TYPE OF GRANT               NO.         AMOUNT             NO.      AMOUNT
                                       ($ in Thousands)           ($ in Thousands)

Technical Assistance:       102               8,370          99        8,140

Construction:
 Title I                    126           $135,014           24    $ 30,917
 Title IX                   182            183,232          136     138,797
   Subtotal                 308           $318,246          160    $169,714

Revolving Loan Funds:        21              13,534          16       10,471

Levee:                      108              70,433          12        3,996

   Total                    539           $410,583          287    $192,321




                                        14
                                                                       Appendix II




                     Schedule of Undisbursed RLF Grant Funds
                                 As of May 27, 1998


                                                      Disbursed    Undisbursed
 Grant No.       Grant Recipient      Grant Amount    Amount        Amount

05-19-61290   MID-IA DEV Fund Inc.    $ 600,000      $ 579,254     $ 20,746
06-19-61084   Valmeyer Village           400,000             -0-    400,000
06-19-61092   Mississippi River RPC      340,000        309,254      30,746
06-19-61093   Mississippi River RPC      340,000        146,703     193,297
06-19-61094   Mississippi River RPC      340,000        211,633     128,367
                                      $2,020,000     $1,246,844    $773,156




                                        15
